Wescom Active Visa
Apply

Simply a low rate, without the rewards
Annual Percent Rate (APR) as low as

9.15%*

0% intro APR for 12 months on purchases & balance transfers

After first 12 months, a variable rate of 9.15%-19.15% will apply.
Intro Balance Transfer Fee

$0

Balance Transfer Fee(after intro period)

$2 or 2%, whichever is greater maximum fee $50
Annual Fee

None

Rewards

None

One-Time Cash Back Bonus

None
View More

MyRewards Visa
Apply

Rewards on every purchase
Annual Percent Rate (APR) as low as

11.15%*

0% intro APR for 6 months on purchases & balance transfers

After the first 6 months, a variable rate of 11.15%-21.15% APR will apply.
Intro Balance Transfer Fee

$0

Balance Transfer Fee(after intro period)

$2 or 2%, whichever is greater maximum fee $50
Annual Fee

None

Rewards

1.5 points per $1 spent

One-Time $100 Cash Back Bonus

Earn 10,000 bonus points (a $100 value) when you spend $2,500 within first 3 months
View More

Bruin Edge Visa
Apply

Rewards that fuel your Bruin pride
Annual Percent Rate (APR) as low as

13.15%*

0% intro APR for 6 months on purchases & balance transfers

After the first 6 months, a variable rate of 13.15%-23.15% will apply.
Intro Balance Transfer Fee

$0

Balance Transfer Fee(after intro period)

$2 or 2%, whichever is greater maximum fee $50
Annual Fee

None

Rewards

1.5 points per $1 spent
5 points per $1 spent on select UCLA Purchases1
One-Time $500 Cash Back Bonus

Earn 50,000 bonus points (a $500 value) when you spend $2,500 within first 3 months

View More

Bruin Choice Visa
Built to help UCLA students start their credit journey with limits up to $1,000
Apply
Annual Percent Rate (APR) as low as

13.15%*

0% intro APR for 6 months on purchases & balance transfers

After the first 6 months, a variable rate of 13.15%-23.15% will apply.
Intro Balance Transfer Fee

$0

Balance Transfer Fee(after intro period)

$2 or 2%, whichever is greater maximum fee $50
Annual Fee

None

Rewards

1.5 points per $1 spent
5 points per $1 spent on select UCLA Purchases2
One-Time $50 Cash Back Bonus

Earn 5,000 bonus points (a $50 value) when you spend $500 within first 3 months
View More

*APR=Annual Percentage Rate. Rates are valid as of 07/01/2021 and subject to changes without notice. APR
may vary based on credit qualifications. Terms and conditions apply.

TERMS AND CONDITIONS

This Account Opening Table is provided in compliance with the Federal Truth-in-Lending Act. This
is not a complete Truth-in-Lending Disclosure, but is incorporated into Wescom Central Credit

Union's Credit Card Agreement and Federal Truth-In-Lending Disclosure. Effective: 07-012021

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

MyRewards Signature/MyRewards/Secured
0.00% Introductory APR for six months from

After that, your APR will be 11.15% to 21.
vary with the market based on the Prime Rate
Wescom Active
0.00% Introductory APR for 12 months from

After that, your APR will be 9.15% to 19.1
with the market based on the Prime Rate.
Bruin Edge Signature/Bruin Edge/Bruin Ch
0.00% Introductory APR for six months from

After that, your APR will be 13.15% to 23.
vary with the market based on the Prime Rate
APR for Balance Transfers

MyRewards Signature/MyRewards/Secured
0.00% Introductory APR for six months from a
After that, your APR will be 11.15% to 21.15%
the market based on the Prime Rate.
Wescom Active
0.00% Introductory APR for 12 months from a
After that, your APR will be 9.15% to 19.15%,
the market based on the Prime Rate.
Bruin Edge Signature/Bruin Edge/Bruin Ch
0.00% Introductory APR for six months from a
After that, your APR will be 13.15% to 23.15%
the market based on the Prime Rate.

APR for Cash Advances

MyRewards Signature/MyRewards/Secured
11.15% to 21.15%, when you open your acco
with the market based on the Prime Rate.
Wescom Active
9.15% to 19.15%, when you open your accou
with the market based on the Prime Rate.
Bruin Edge Signature/Bruin Edge/Bruin Ch
13.15%to 23.15%, when you open your accou
with the market based on the Prime Rate.

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after the clo
on purchases if You pay Your entire balance b
zero or a credit balance.

For Credit Card Tips from the Consumer Financial
Protection Bureau

To learn more about factors to consider wh
website of the Consumer Financial Protect
at http://www.consumerfinance.gov/learnm

Fees
Transaction Fees

Balance Transfer Fee: $2.00 Or 2.00% Of The Am
(Maximum Fee: $50.00)
Cash Advance Fee: $2.00 Or 2.00% Of The Amou
Fee: $50.00)
Foreign Transaction Fee: None

Penalty Fees

Late Payment Fee: Up To $15.00
Returned Payment Fee: Up To $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - MyRewards Signature, MyRewards, Bruin Edge
Signature, Bruin Edge, Bruin Choice, and Secured:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your
account during the first six months following the opening of your account. Any existing balances on
Wescom Central Credit Union loan or credit card accounts are not eligible for the Introductory APR
for balance transfers.
Promotional Period for Introductory APR - Wescom Active:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your
account during the first 12 months following the opening of your account. Any existing balances on
Wescom Central Credit Union loan or credit card accounts are not eligible for the Introductory APR
for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: 07-012021 This information may have changed after that date. To find out what may have changed,
contact the Credit Union.
For California Borrowers, the Secured is a secured credit card. Credit extended under this
credit card account is secured by various personal property and money including, but not
limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have
in any individual or joint account with the Credit Union excluding shares in an Individual

Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee:
$15.00 or the amount of the required minimum payment, whichever is less, if you are 15 or more
days late in making a payment.
Balance Transfer Fee (Finance Charge):
$2.00 or 2.00% of the amount of each balance transfer, whichever is greater, however, the fee will
never exceed $50.00. However, the fee will not be assessed on transactions posted during the
Promotional Period stated on the previous page.
Cash Advance Fee (Finance Charge):
$2.00 or 2.00% of the amount of each cash advance, whichever is greater, however, the fee will
never exceed $50.00.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Rush Fee:
$18.00.
Statement Copy Fee:

